A

ANCE DE

FREEDOM

August 28, 2019

The Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States

One First Street, N.E.

Washington, DC 20543-0001

Re: No. 19-255, Thomas More Law Center v. Becerra
Dear Mr. Harris:

Pursuant to Supreme Court Rule 37.2(a), Petitioner Thomas More Law
Center hereby gives blanket consent to the filing of amicus curiae briefs in support
of either or of neither party in the above-referenced case, with respect to the
petition for writ of certiorari filed on August 26, 2019. Thank you for your
assistance.

Sincerely,
John J. Bursch

Counsel for Petitioner

ce: Jose A. Zelidon-Zepada, Deputy Attorney General — Government Law Center
Counsel for Respondent

15100 N. 90th Street, Scottsdale, AZ 85260 Phone: 480.444.0020 Fax: 480.444.0028

 
